OFFICE OF INSPECTOR GENERAL

AUDIT OF THE SUSTAINABILITY
OF USAID/IRAQ-FUNDED
INFORMATION TECHNOLOGY
SYSTEMS
AUDIT REPORT NO. E-267-12-002-P
MARCH 21, 2012




BAGHDAD, IRAQ
Office of Inspector General


March 21, 2012

MEMORANDUM

TO:                  USAID/Iraq Mission Director, Alex Dickie

FROM:                Office of Inspector General/Iraq Director, Darren Roman /s/

SUBJECT:             Audit of the Sustainability of USAID/Iraq-Funded Information Technology
                     Systems (Report No. E-267-12-002-P)


This memorandum transmits our final report on the subject audit. We have carefully considered
your comments on the draft report and have included them in their entirety in Appendix II.

The report contains seven recommendations to help the mission strengthen the oversight and
performance of activities related to information technology systems. Based on your written
comments in response to the draft report, management decisions have been reached on all
seven recommendations. Please provide the Audit Performance and Compliance Division with
evidence of final action on completion of the planned corrective actions.

I want to thank you and your staff for the cooperation and courtesies extended to us during this
audit.




U.S. Agency for International Development
USAID/Iraq
Box 0047, Unit 6060
DPO, AE 09870-0047
www.usaid.gov/oig
CONTENTS
Summary of Results ................................................................................................................. 1

Audit Findings ........................................................................................................................... 3

     Mission-Funded Information Technology Systems Were Not Being Used ............................. 3

Evaluation of Management Comments.................................................................................. 12

Appendix I—Scope and Methodology ................................................................................... 13

Appendix II—Management Comments .................................................................................. 15




Abbreviations

The following abbreviations appear in this report:

GAPTIS          Governorates Accounting and Project Tracking Information System
IT              information technology
IV&V            independent verification and validation
MSI             Management Systems International
NBP             National Board of Pensions
OIG             Office of Inspector General
SUMMARY OF RESULTS
Several factors must be considered and addressed to develop and implement successful IT
systems in developing countries.1 First, the host country must commit to needing, using, and
supporting the IT systems. Second, USAID/Iraq and implementing partners need to consider
the operating environment of host-country infrastructure—i.e., the availability and reliability of
electricity, Internet, and telecommunications to support IT systems. Third, the computer
hardware and software need to meet the needs of the intended user. Fourth, the users need to
be trained in how to use the new technology. Finally, the host country must plan and take into
account maintenance costs for IT systems, which can be high.

Between 2003 and 2011, USAID/Iraq implemented programs across several sectors to assist
the Government of Iraq. These programs were intended to stabilize communities, foster
economic and agricultural growth, and build the capacity of the national, local, and provincial
governments. Some of these programs included the financing and development of information
technology (IT) systems.

During this period, USAID/Iraq funded at least 24 IT systems,2 totaling $73.2 million, through
awards to various contactors and grantees. These USAID-financed IT systems were intended
to be delivered to and used by Government of Iraq entities to allow them to operate in a more
efficient, effective, and transparent manner. In some cases, the awards included IT systems as
specific deliverables; in other cases, USAID/Iraq programs implemented IT systems to achieve
broader goals such as to increase transparency and accountability, and to reduce fraud or
corruption.

The Office of Inspector General’s Country Office in Iraq (OIG) conducted this audit to determine
whether selected USAID/Iraq-funded IT systems were used as intended. If the Government of
Iraq used the systems at the time of completion, even for a short time—less than a year—we
considered that they were used as intended.

The audit determined that, of the 24 USAID/Iraq-funded IT systems, (1) 10 systems, totaling
$62.1 million, were not completed, not functional when delivered, or not used by the
Government of Iraq as intended, (2) 3 systems, totaling $1.5 million, were used as intended,
and (3) 2 systems, totaling $2.5 million, were partially used (pages 3-8). For the remaining nine
systems, totaling $7.1 million, the mission was unable to provide documentation that the
systems were used or to provide direct contact information for the end users (noted as a scope
limitation in Appendix I) so that auditors could follow up with them. Nevertheless, the director of
the USAID/Iraq technical office said that the Government of Iraq likely did not use the systems.

The ten systems not used as planned were not used because the Government of Iraq did not

1
   Chapter 548 of USAID’s Automated Directives System, “Program-Funded Information Technology,”
states that IT systems implemented under USAID contracts and valued at more than $100,000 are
required to undergo an independent verification and validation review performed by the Office of the Chief
Information Officer. Such a review assesses several factors that influence successful development of the
proposed IT system—for example, maintenance plans, host-country infrastructure, information security
measures, and training and staffing plans for implementation. Although strongly recommended, these
reviews are not required for IT systems under grants and cooperative agreements.
2
  “IT systems” in this report are those for which the mission procured or developed hardware or software.
We excluded systems for which the mission provided only technical assistance.


                                                                                                        1
support the systems, the mission’s implementing partners did not deliver completed or
functional systems, USAID/Iraq stopped funding the systems, and the Government of Iraq was
not prepared to use one system.

So that future USAID/Iraq-financed IT systems are successfully developed and supported by
Iraqi institutions, we recommend that the mission:

1. Obtain written commitment and buy-in from the Government of Iraq, including cost
   sharing, before investing any funds in IT systems, and monitor the Government of Iraq’s
   commitment throughout the implementation of the systems (page 11).

2. Issue guidance to implementing partners of programs with IT components regarding the
   independent verification and validation (IV&V) review process so that it can be
   completed in a thorough and timely manner (page 11).

3. Require sustainability and users’ needs to be built into the design of IT systems
   (page 11).

4. Complete and transfer IT systems to the Government of Iraq in sufficient time so that
   systems are fully functional and used for their intended purposes before programs end
   (page 11).

5. Monitor the implementation of IT systems, and immediately stop funding them if they are
   found not to be usable, sustainable, or supported by the intended user (page 11).

6. Work with the Government of Iraq to determine whether the Bill Tracking System and the
   Content Management System (Numbers 8 and 9 in the table that begins on page 3) can
   be salvaged and used (page 11).

7. Establish follow-up procedures to document that IT systems have been transferred to
   the intended users and are in use (page 11).

Detailed findings appear in the following section, and the scope and methodology appear in
Appendix I. USAID/Iraq’s written comments on the draft are included in Appendix II. Our
evaluation of these management comments is included in the report on page 12.




                                                                                             2
AUDIT FINDINGS
Mission-Funded Information
Technology Systems Were Not
Being Used
Between 2003 and 2011, USAID/Iraq implemented several programs that included funding IT
systems. In some cases, the contracts or cooperative agreements included IT systems as
specific deliverables; in other cases, USAID/Iraq programs developed IT systems to achieve
broader goals, such as to increase transparency and accountability, and to reduce fraud or
corruption.

USAID’s Automated Directives System (Sections 202.3.6 and 202.3.6.1) requires contracting
officer’s technical representatives and development objective teams to monitor the quality and
timeliness of outputs produced by implementing partners and to maintain work files. USAID
personnel are to monitor deliverables with the understanding that any “delays in completing
outputs or problems in output quality provide an early warning that results may not be achieved
as planned.”

Of the 24 systems examined, (1) 10 systems, totaling $62.1 million, were not completed, not
functional when delivered, or not used by the Government of Iraq as intended, (2) 3 systems,
totaling $1.5 million, were used as intended, and (3) 2 systems, totaling $2.5 million, were
partially used. For the remaining nine systems, totaling $7.1 million, the mission was unable to
provide documentation that the systems were used or to provide direct contact information for
the end users. The systems examined and their status are summarized in the table below by
program area.

                Audit Conclusions Regarding USAID/Iraq-Funded IT Systems
           IT System
        Implementing                               Cost ($)
No.    Partner, Program       Intended Use                         Used       Comments
      Name, and Program
                                                 (unaudited)
           End Date

Capacity Building

                                                                          The system was
                                                                          launched in June 2011
      Iraq Development                                                    at the Ministry of
      Management             A customized tool                            Planning, and the
      System                 to help the                                  Ministry issued a
      Management             Ministry of                                  report using the
                                                               *
1.    Systems                Planning plan           181,227       Yes    system in December
      International (MSI),   and track capital                            2011. A follow-on
      National Capacity      investment                                   USAID program is
      Development            projects                                     implementing the
      Program, July 2011                                                  system at other
                                                                          ministries and at the
                                                                          provincial level.




                                                                                                  3
           IT System
        Implementing                                Cost ($)
No.    Partner, Program       Intended Use                            Used            Comments
      Name, and Program
                                                  (unaudited)
           End Date
                            To allow select
                                                                                 An employee from the
      Geographic            Iraqi ministries to
                                                                                 Ministry of Agriculture
      Information           collect and
                                                                                 confirmed the use of
      System                analyze spatial
                                                                 †               the system.
2.    MSI, National         data related to          1,284,473         Yes
                                                                                 Additionally, reports
      Capacity              infrastructure,
                                                                                 made using the
      Development           population
                                                                                 system were given to
      Program, July 2011    density, and land
                                                                                 OIG.
                            use
                                                                                 The system (also
                                                                                 listed as No. 18) was
      Social Safety Net                                                          in use at four ministry
                            To help the
      System                                                                     locations in Baghdad
                            Ministry of Labor
      MSI, National                                              *               and deployed but not
3.                          and Social Affairs       1,410,900       Partially
      Capacity                                                                   in use at five other
                            manage social
      Development                                                                ministry locations. A
                            welfare benefits
      Program, July 2011                                                         follow-on program
                                                                                 continues to support
                                                                                 the system.
      Education             To assist the
      Management            Ministry of
      Information           Education in
                                                                                 The system was not
      System                managing                             *
4.                                                   1,644,966         No        completed, according
      Creative Associates   information on                                                            ‡
                                                                                 to a 2007 OIG audit.
      International,        the physical
      Education Program     condition of
      II, February 2007     schools
                                                                                 According to a 2005
                                                                                              ‡
                                                                                 OIG audit, the
                                                                                 mission’s
      Medical Facilities
                                                                                 implementing partner
      Database              To manage
                                                                                 delivered the system
      Abt Associates,       information on
                                                                                 in an unusable
5.    Health Systems        medical facilities        Unknown          No
                                                                                 condition. In October
      Strengthening         for the Ministry of
                                                                                 2011, IT officials in the
      Program, November     Health
                                                                                 Ministry of Health told
      2004
                                                                                 OIG that they were
                                                                                 unaware of the
                                                                                 system.
                                                                                 In 2005, the mission’s
                                                                                 implementing partner
      Disease
                            To collect                                           delivered the system
      Surveillance
                            information about                                    in an unusable
      System
                            and track the                                        condition. As of
      Abt Associates,
6.                          spread and                Unknown          No        October 2011, IT
      Health Systems
                            outbreak of                                          officials in the Ministry
      Strengthening
                            diseases                                             of Health indicated
      Program, November
                                                                                 that they were not
      2004
                                                                                 aware of any such
                                                                                 system.



                                                                                                             4
           IT System
        Implementing                               Cost ($)
No.    Partner, Program       Intended Use                            Used           Comments
      Name, and Program
                                                 (unaudited)
           End Date

Democracy and Governance

                              A credible and
                              sustainable
      Voter Registration
                              voter
      System
                              registration
      International
                              database to
      Foundation for                                                            The system is deployed
7.                            help the               Unknown          Yes
      Electoral Systems,                                                        and currently in use.
                              Independent
      Electoral Technical
                              High Electoral
      Assistance Program,
                              Commission
      September 2011
                              administer
                              elections
                                                                                One of three servers
                                                                                was delivered to
      Bill Tracking System                                                      Parliament, which
      AECOM, Iraq             To help                                           allowed the
      Legislative             Parliament                        *               implementing partner to
8.                                                   894,850          No
      Strengthening           manage                                            conduct training.
      Program, October        legislation                                       Although the system
      2011                                                                      was ready, it remained
                                                                                in training mode and
                                                                                was not in use.
      Content Management
                              To strengthen
      System
                              Parliament’s
      AECOM, Iraq                                                               Work on the system
                              public outreach                   *
9.    Legislative                                     33,589          No        ended prior to program
                              through
      Strengthening                                                             completion.
                              improved Web
      Program, October
                              services
      2011
      Governorates
                                                                                The implementing
      Accounting and
                                                                                partner completed the
      Project Tracking        To help 14
                                                                                system. However,
      Information System      provincial
                                                                *               information provided by
10.   (GAPTIS)                governorates          1,065,422       Partially
                                                                                the mission showed
      Research Triangle       manage their
                                                                                that the system was in
      Institute, Local        budgets
                                                                                use at only some
      Governance Program
                                                                                governorates.
      III, June 2011
                              To help Iraqi
                              provincial
      Geographic              officials
                                                                                The mission stopped
      Information System      produce city
                                                                                funding the system,
      Research Triangle       maps with                         *
11.                                                 5,176,900         No        which it thought was
      Institute, Local        utility overlays
                                                                                unsustainable and
      Governance Program      to help plan for
                                                                                would not be used.
      II and III, June 2011   the delivery of
                              essential
                              services



                                                                                                          5
           IT System
        Implementing                               Cost ($)
No.    Partner, Program       Intended Use                           Used        Comments
      Name, and Program
                                                 (unaudited)
           End Date

Economic Growth and Agriculture
                                                                                                       ‡
                                                                             A July 2010 OIG audit
                              To help the
      Iraq Financial                                                         found that the system
                              Ministry of
      Management                                                             was not meeting
                              Finance
      Information System                                                     users’ needs. The
                              formulate,                       *
12.   BearingPoint,                               32,600,000         No      mission did not
                              execute, and
      Economic Governance                                                    complete the system,
                              monitor central
      Program II, September                                                  and USAID does not
                              government
      2009                                                                   intend to spend any
                              budgets
                                                                             additional funds on it.
                              To help the
                              Census Unit of
      Census System
                              the Ministry of
      BearingPoint,                                                          The mission was
                              Finance                          †
13.   Economic Governance                           897,010        Unknown   unable to supply any
                              maintain a
      Program II, September                                                  evidence of use.
                              database of all
      2009
                              government
                              employees
      Customs Levy            To upgrade the
      System                  Reconstruction
                                                                             The mission was
      BearingPoint,           Levy System                      †
14.                                                1,092,125       Unknown   unable to supply any
      Economic Governance     (No. 22) to help
                                                                             evidence of use.
      Program II, September   the government
      2009                    collect revenue
      Electric Meter Survey
                              To enable the
      System
                              Ministry of                                    The mission was
      BearingPoint,                                            †
15.                           Electricity to        710,947        Unknown   unable to supply any
      Economic Governance
                              manage                                         evidence of use.
      Program II, September
                              electric meters
      2009
      Provincial Budget
                              To help the
      Offline Management
                              Ministry of
      Tool                                                                   The mission was
                              Finance                          †
16.   BearingPoint,                                 962,408        Unknown   unable to supply any
                              manage
      Economic Governance                                                    evidence of use.
                              provincial
      Program II, September
                              projects
      2009
      National Board of
      Pensions (NBP)
      Member Registry         To help NBP
                                                                             The mission was
      System                  manage all                       †
17.                                                 228,776        Unknown   unable to supply any
      BearingPoint,           pension fund
                                                                             evidence of use.
      Economic Governance     members
      Program II, September
      2009




                                                                                                           6
           IT System
        Implementing                                Cost ($)
No.    Partner, Program       Intended Use                            Used        Comments
      Name, and Program
                                                  (unaudited)
           End Date
                                                                              When the Economic
                                                                              Governance Program
                                                                              II finished, the system
                              To help the                                     was not deployed or
      Social Safety Net
                              Ministry of                                     usable. Afterward,
      System
                              Labor and                                       system
      BearingPoint,                                             *
18.                           Social Affairs       16,000,000         No      implementation was
      Economic Governance
                              implement a                                     transferred to a
      Program II, September
                              reliable social                                 different implementing
      2009
                              safety net                                      partner, which has
                                                                              partially implemented
                                                                              the system (described
                                                                              in No. 3 above).
      Public Sector and
      Private Sector
                              To assist the
      Pension
                              Ministry of
      Administration                                                          The mission was
                              Labor and                         †
19.   System                                         425,824        Unknown   unable to supply any
                              Social Affairs in
      BearingPoint,                                                           evidence of use.
                              administering
      Economic Governance
                              pensions
      Program II, September
      2009
                                                                              The tax system was
      Tagdeer Tax
                              To help the Iraq                                not left in a usable
      Information
                              General                                         condition at the end of
      Technology System
                              Commission on                     †             the program. The U.S.
20.   BearingPoint,                                 4,975,379         No
                              Taxes                                           Department of
      Economic Governance
                              administer                                      Treasury is currently
      Program II, September
                              taxes                                           trying to salvage the
      2009
                                                                              system.
      Central Registry        To simplify the
      System                  registration
                                                                              The mission was
      BearingPoint,           process for                       †
21.                                                 1,855,954       Unknown   unable to supply any
      Economic Governance     companies at
                                                                              evidence of use.
      Program II, September   the Ministry of
      2009                    Trade
      Reconstruction Levy
      System                  To improve the
                                                                              The mission was
      BearingPoint,           collection of                     †
22.                                                  486,712        Unknown   unable to supply any
      Economic Governance     customs at 20
                                                                              evidence of use.
      Program I, September    border posts
      2004
                              To enable the
                              Central Bank of
      Central Data Center
                              Iraq to manage
      BearingPoint,                                                           The mission was
                              databases of                      †
23.   Economic Governance                            465,570        Unknown   unable to supply any
                              information
      Program II, September                                                   evidence of use.
                              required for
      2009
                              day-to-day
                              work



                                                                                                        7
               IT System
            Implementing                                     Cost ($)
No.        Partner, Program         Intended Use                            Used       Comments
          Name, and Program
                                                           (unaudited)
               End Date
                                    To provide
                                    daily wholesale
                                                                                   A May 2011 OIG
         Marketing                  prices of major                                     ‡
                                                                                   audit found that the
         Information System         agricultural
                                                                        †          system was not
24.      Louis Berger Group,        commodities               836,060       No
                                                                                   sustainable, and the
         Agribusiness Program,      from 18
                                                                                   mission stopped
         May 2012                   wholesale
                                                                                   funding the system.
                                    markets across
                                    the country
                                                                                   10 of 24 systems
                                                                                   tested were not
                                                                                   used; 3 systems
                                                                                   were in use; 2
          Total                                             73,229,092             systems were
                                                                                   partially in use; and
                                                                                   there was no
                                                                                   evidence of use for 9
                                                                                   systems.
*
    Actual cost information came directly from the implementing partner or program documentation.
†
    Cost was the projected value reported in the IV&V review documentation.
‡
    Audits referred to in table order are the following:
       “Follow-Up Audit of USAID/Iraq’s Education Activities,” Report No. E-267-07-003, February 4, 2007.
       “Audit of USAID/Iraq’s Health System Strengthening Contract Activities,” Report No. E-267-05-002-P,
       February 28, 2005.
       “Audit of USAID/Iraq’s Implementation of the Iraq Financial Management Information System,” Report
       No. E-267-10-002-P, July 19, 2010.
       “Audit of USAID/Iraq’s Agribusiness Program,” Report No. E-267-11-002-P, May 16, 2011.

As the table indicates, of the 24 systems examined, only 3 were used and 2 were partially in
use. Three systems—Numbers 1, 2, and 7—were being used as intended. USAID/Iraq’s
implementing partners completed the systems by the end of their programs, and the systems
meet their users’ needs. However, these systems were all completed recently, and their long-
term use remains uncertain. For nine systems, no evidence of use was provided. The
remaining ten systems were not used because the Government of Iraq did not support the
systems, IT systems were not delivered in usable condition or could not be used, USAID/Iraq
stopped funding the systems, and the Government of Iraq was not prepared to use one system.

The nine systems for which the mission was unable to provide documentation (either showing
that systems were used or providing direct contact information for the end users) were
developed under the Economic Governance Program (Numbers 13-17, 19, and 21-23 in the
table). A USAID/Iraq official mentioned that these systems were likely not in use because at the
time these systems were being developed certain officials within the Government of Iraq might
not have welcomed transparency and did not support the systems. (This statement is consistent
with others the mission made in its official comments on a prior audit report.3)
3
 “Audit of USAID/Iraq’s Implementation of the Iraq Financial Management Information System,” Report
No. E-267-10-002-P, July 19, 2010.


                                                                                                           8
Moreover, an OIG audit4 found that implementing partners did not obtain IV&V approval for
several IT systems implemented under the Economic Governance Program and that some IT
submissions for approval did not accurately reflect the costs of the systems. The IV&V review is
an important control to help ensure the successful development of IT systems. IV&V reviews
were submitted for these systems after the audit, after implementation was well under way. The
estimated cost of the nine systems was $7.1 million.

Although the mission did not provide documentation, U.S. Department of Treasury officials in
Iraq stated that they are currently trying to salvage the Tagdeer Tax System (No. 20), which was
not completed at the end of USAID’s Economic Governance Program II. According to the
officials, they decided to do this on their own and are working on the system without USAID/Iraq
assistance.

Reasons for disuse of systems are detailed below.

Lack of Government Support. The Government of Iraq did not support three systems:

      When the Content Management System (No. 9) and the Bill Tracking System (No. 8) were
      first proposed, the Iraqi Parliament supported them. However, after parliamentary elections
      changed the makeup of Parliament in March 2011, the new Parliament no longer supported
      the Content Management System. Thus, the implementing partner, AECOM, stopped working
      on it after $33,589 had been spent. Work ceased on the Bill Tracking System when the new
      Parliament terminated its memorandum of understanding with USAID in October 2011 after
      $894,850 had been spent on the system. AECOM officials said that, had they been able to
      finish the USAID/Washington-mandated IV&V review process earlier, they could have
      implemented the two systems before the change in Parliament, thus increasing the chances
      that the systems would be used. The IV&V approval for the Content Management System
      was delayed 3 months because of internal delays, according to AECOM officials. Similarly,
      AECOM experienced a 2-month delay in the IV&V process for the Bill Tracking System
      because it initially sent the review request to the mission instead of to the Office of the Chief
      Information Officer in Washington, D.C. The review was further delayed because part of
      AECOM’s submission did not meet the office’s standards.

      GAPTIS (No. 10) was intended to improve the transparency of accounting practices in the
      governorates. However, according to State Department officials from a Provincial
      Reconstruction Team, USAID and its implementer, Research Triangle Institute, assumed
      that the Government of Iraq wanted to improve transparency, which was not the case. This
      lack of user buy-in, coupled with only limited, rudimentary training, led to disuse of the
      system in some governorates. One State Department official said the program “should have
      done a lot more work on coordinating it [GAPTIS] at the national level and providing
      sustained expert assistance. The program assumed that Iraqis would want the new
      efficiencies and transparencies.” Had USAID achieved tangible user buy-in, such as cost
      sharing, or provided more extensive, sustained training, GAPTIS might have been used in
      more locations. USAID spent $1,065,422 on the system. In response to the draft report,
      USAID/Iraq stated that two current implementing partners working with provincial governors’
      offices reported that GAPTIS is in use and that at least some governors find it valuable.
      Therefore, we have classified this system as partially in use.

Unusable Systems. Three systems were not delivered in usable condition, as described below:
4
    “Audit of USAID/Iraq's Economic Governance Program II,” Report No. E-267-09-004-P, June 3, 2009.


                                                                                                       9
    Because servers for the Education Management Information System (No. 4) were not
    delivered as scheduled to Iraq, the system was not in use at the end of the program.
    According to an OIG audit,5 the servers were stuck in the customs clearing process. USAID
    confirmed that the Government of Iraq eventually received the servers, but because the
    program had ended, mission officials stated that they had no authority to ensure the
    system’s use. The mission provided United Nations documents dated November 14, 2011,
    indicating that the system may now be in use.

    The Medical Facilities Database System (No. 5) contained a virus, and the backup version
    was “read only.” As a result, the system was not usable.

    The Disease Surveillance System (No. 6) was dependent on Internet and
    telecommunications capabilities. At the time of implementation in 2004, Iraq did not have
    the necessary infrastructure to use the system effectively.

Funding Cutoff. The mission stopped funding three systems:

    A 2010 OIG audit6 of the Iraq Financial Management Information System (No. 12) concluded
    that the system had not been completed and was not being used as intended. USAID/Iraq
    made the decision to stop funding the system after spending $32.6 million.

    A 2011 OIG audit7 found that the $836,060 Marketing Information System (No. 24)
    developed under the Agribusiness Program was not sustainable. The mission decided to
    terminate funding when it became apparent that the Government of Iraq was not prepared to
    assume responsibility for the system.

    USAID/Iraq decided to stop funding the Geographic Information System (No. 11) because
    the mission determined that the system was not sustainable and would not be used. The
    system implementation had started under the prior program, Local Governance Program II,
    and the mission’s decision to stop funding the system came after more than $5 million had
    been spent on it. Furthermore, an IV&V review, which would have required program officials
    to build sustainability into the system design, was not submitted to USAID/Washington for
    approval.

Lack of Government Preparation. The Social Safety Net System (No. 18) was developed by
BearingPoint under the Economic Governance Program II. However, after $16 million was
spent, the system was not completed and was left in unusable condition at the close of the
program in September 2009. The USAID/Iraq Capacity Development Program subsequently
picked up the system (No. 3). Under this program, the system was delivered in a usable
condition to nine Ministry of Labor and Social Affairs sites after the mission spent an additional
$1.4 million. However, at five of those sites, the ministry had not prepared the data necessary to
use the system. Therefore, the system is used as intended at only four of nine deployment
sites. The mission’s Administrative Reform Program continues to support the implementation of
the system.

In summary, the IT system endeavors failed. USAID/Iraq’s $62.1 million investment in the 10
5
  “Follow-Up Audit of USAID/Iraq’s Education Activities,” Report No. E-267-07-003, February 4, 2007.
6
  “Audit of USAID/Iraq's Implementation of the Iraq Financial Management Information System.”
7
  “Audit of USAID/Iraq's Agribusiness Program,” Report No. E-267-11-002-P, May 16, 2011.


                                                                                                       10
unused systems represents wasted U.S. taxpayer dollars, and the $7.1 million spent on nine
other systems may have been wasted because the mission doesn’t know whether they were
completed, delivered, and used by the Government of Iraq as intended. Thus, either USAID
programs did not achieve their goals to make Government of Iraq entities more effective,
efficient, and transparent, or USAID/Iraq does not know whether the program goals were
achieved.

Because many of the systems that were never used were either part of programs that ended
several years ago or the mission stopped funding the systems because it realized that the
Government of Iraq did not support the systems, the recommendations below focus on helping
to ensure that future USAID/Iraq-financed IT systems are successfully developed and supported
by Iraqi institutions. We also recommend that the mission attempt to salvage two recently
completed systems that were not in use.

   Recommendation 1. We recommend that USAID/Iraq obtain written commitment and
   buy-in from the Government of Iraq, including cost sharing, before investing any funds in
   information technology systems, and monitor the Government of Iraq’s commitment
   throughout the implementation of the systems.

   Recommendation 2. We recommend that USAID/Iraq issue written guidance to
   implementing partners of programs with information technology components regarding
   the independent verification and validation review process so that it can be completed in
   a thorough and timely manner.

   Recommendation 3. We recommend that USAID/Iraq require sustainability and users’
   needs to be built into the design of USAID-funded information technology systems.

   Recommendation 4. We recommend that USAID/Iraq complete and transfer
   information technology systems to the Government of Iraq in sufficient time to confirm
   that the systems are fully functional and used for their intended purposes before
   programs end. The completion, transfer, and use of the system should be documented.

   Recommendation 5. We recommend that USAID/Iraq monitor the implementation of
   information technology systems and immediately stop funding them if they are found not
   to be usable, sustainable, or supported by the intended user.

   Recommendation 6. We recommend that USAID/Iraq work with the Government of Iraq
   to determine whether the Bill Tracking System and the Content Management System
   (Numbers 8 and 9 in the table) can be salvaged and used, and document the results.

   Recommendation 7. We recommend that USAID/Iraq establish and implement follow-
   up procedures to document that information technology systems have been transferred
   to the intended users and are in use.




                                                                                               11
EVALUATION OF MANAGEMENT
COMMENTS
USAID/Iraq agreed with all seven recommendations and plans to issue a mission order on
USAID-funded IT systems by September 30, 2012, to strengthen its system and address
recommendations made in this report. Regarding Recommendation 6, the mission stated that it
is seeking a meeting with the Secretary General of the Council of Representatives to advocate
for the full implementation of the Bill Tracking System and the Content Management System.
Based on the information provided in the mission’s response, management decisions have been
reached on all seven recommendations.

In addition, USAID/Iraq provided some general comments on the draft report. For example, the
mission stated that a change of leadership in a ministry and fluctuating budgets may prevent the
counterpart from using the system, even though its viability is not in question. Additionally, the
mission stated that Iraq has been and continues to be a challenging environment and that the
working relationship with the Government of Iraq changes over time.

USAID/Iraq also provided additional information regarding some IT systems. Mission comments
on certain systems, followed by our evaluation of the comments, follow:

   The mission stated that it decided to terminate the Marketing Information System (No. 24 in
   the report table) when it became apparent that the Government of Iraq was not prepared to
   assume responsibility for that system, despite earlier assurances that it would do so.

   Concerning the Education Management Information System (No. 4), the mission stated that
   it provided some information to OIG showing that the system was in use. Yet the mission
   went on to say that the system is in use but not fully functional and that technical assistance
   is required to upgrade the system. As stated in the report, the servers for the Education
   Management Information System were not delivered as scheduled to Iraq; thus, the system
   was not in use at the end of the program as intended. We asked mission officials repeatedly
   during the audit to provide sufficient evidence on the use of the system; however, the
   mission did not do so.

   Regarding GAPTIS (No. 10), the mission stated that two current implementing partners
   working with provincial governors’ offices reported GAPTIS is in use and at least some
   governors find it valuable. Still, Department of State employees visited one governorate and
   confirmed that GAPTIS was not in use there. And, although we asked mission officials
   repeatedly during the audit to provide evidence that GAPTIS was used by the 14 assisted
   governorates, they did not do so. Nevertheless, given the additional information provided by
   the mission in its response to the draft, we reclassified this system as partially in use.

Finally, the mission stated that it referred the auditors to the final reports of the contractors
implementing the systems mentioned in the report, which are routinely published through the
Development Experience Clearinghouse. However, the mission did not dispute that these final
reports inadequately documented the use of IT systems. Having reviewed the final contractor
reports, we agree with the mission that they were inadequate in documenting the use of IT
systems.



                                                                                               12
                                                                                        Appendix I



SCOPE AND METHODOLOGY
Scope
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
in accordance with our audit objective. The mission was unable to produce documentation that
ten of its IT systems were officially transferred to or used by the Government of Iraq as
intended, or provide any direct contact information for the end users. Except for any adverse
effects of not being able to confirm the status of these systems, we believe that the evidence
obtained provides a reasonable basis for our findings and conclusions.

The purpose of this audit was to determine whether USAID/Iraq-funded IT systems were used
as intended. USAID/Iraq funded the implementation of at least 24 IT systems, totaling
$73.2 million, between 2003 and 2011 under contracts and cooperative agreements. The audit
covered all identifiable IT systems on which USAID spent more than $100,000.8 “IT systems” in
this report are those for which the mission procured or developed hardware or software, not
systems on which the mission gave only technical assistance. The audit team identified IT
systems by:

    Reviewing prior OIG audits from 2004 through 2011.
    Interviewing USAID/Iraq officials.
    Interviewing implementing partners.
    Reviewing USAID/Washington’s Office of the Chief Information Officer’s IV&V database.

We conducted this audit from September 2011 to January 2012 at USAID/Iraq and made site
visits to the offices of MSI and the Independent High Electoral Commission in Baghdad.
Because of the perceived need for increased security in Iraq in December 2011, the U.S.
Embassy further restricted movement within Iraq; thus, the audit team was not able to conduct
additional site visits. To compensate for this limitation, we conducted interviews with end users
by phone, obtained IT system reports electronically or through implementing partners, and
interviewed officials with the U.S. Departments of State and Treasury.

Because work on the systems was already completed at the time of the audit, we did not assess
internal controls related to system development. We did, however, determine whether the
mission and implementing partner requested and obtained an IV&V review from
USAID/Washington before starting to develop any IT systems.

Methodology
To answer the audit objective, we first determined the intended use and users of the identified
IT systems by reviewing contracts, cooperative agreements, and other program documents and
by interviewing mission and implementing partner personnel. We then obtained the latest

8
  The Content Management System (No. 9) had a projected cost of $401,297; therefore, we included the
system in the audit. However, the mission stopped work on this system after spending $33,589 because
the Government of Iraq no longer supported the system.


                                                                                                 13
                                                                                      Appendix I


available information to determine whether the systems were completed, delivered to the end
user, and used. We considered that IT systems were used if the Government of Iraq end user
used the IT systems at the time of completion, even if the government used them for a short
time—i.e., less than a year. We did this by making site visits to Government of Iraq institutions
to observe demonstrations of systems’ use; reviewing program documentation; reviewing prior
OIG audit reports; interviewing mission, implementing partner, and Government of Iraq end
users; and obtaining system-produced reports. In addition, we interviewed U.S. officials in Iraq
working for the Departments of State and Treasury who were familiar with the status of the
systems.

We obtained the costs for each system by reviewing program documents, reviewing prior OIG
audit reports, and interviewing mission and implementing partner personnel. In some cases, the
costs included in the report are best estimates or projected costs that were included in IV&V
reviews. In other cases, the mission was unable to provide either cost information or
documentation on the status of the system, including whether the system was completed,
delivered, or used by the Government of Iraq as intended.




                                                                                              14
                                                                                       Appendix II



MANAGEMENT COMMENTS



                                                                                March 1, 2012

MEMORANDUM
UNCLASSIFIED

TO:               Darren Roman, Director Office of Inspector General/Iraq

FROM:             Alex Dickie, Mission Director/s/

SUBJECT:          Management Response to Draft Audit Report No. E-267-12-00X-P

REFERENCE: Office of Inspector General (OIG)/Iraq Draft Audit Report entitled “Audit of
the Sustainability of USAID/Iraq Funded Information Technology Systems” transmitted to the
Mission Director on February 3, 2012.

Thank you for the opportunity to comment on the referenced Draft Audit Report. USAID/Iraq
recognizes the value of this audit as a management tool to further strengthen our programs. We
extend our appreciation to OIG/Iraq for the cooperation exhibited throughout the production of
this report.

The USAID Mission to Iraq was established in the spring of 2003. This audit covers projects
implemented between 2003 and 2011, a period of eight years. U.S. assistance to Iraq has
changed substantially over this period of time and will continue to evolve as security issues and
the political climate continue to change. Iraq has been and continues to be a challenging
environment in which to implement USAID programs. The Iraq of today is substantially
different than the Iraq of 2003 and the success of many of these projects were dependent on the
environment in which they were created.

Please see below our general comments on the draft audit report.

   Page 9 of the audit report “No Evidence of Use”: In an oral interview, USAID staff
   speculated - and made very clear that their views were only speculation - that certain officials
   within the Government of Iraq, in some instances several years ago, might not have
   welcomed transparency. This was a period when, for example, USAID contractors working
   on an information system for transparency at the Ministry of Finance were kidnapped and
   killed. The working environment today in Iraq is substantially different in that regard.


                                                                                                15
                                                                                    Appendix II


Ensuring continuous use of a system deployed by USAID in ministries is not within the
manageable control of our contractors. Change of leadership within the ministry and
fluctuating budgets may prevent the counterpart from continuing to use the system, even
though its viability is not in question. In a formal response USAID stated it did not have the
capability to monitor projects implemented under closed projects implemented years ago
under a different Iraqi government.

Page 10 of the audit report “USAID/Iraq stopped Funding Systems”: USAID’s decision to
terminate the Marketing Information System should not suggest that the contractor failed to
make the system functional or sustainable. Any information system represents a partnership
with the organization implementing the system (i.e. the Government of Iraq) and the
organization providing technical assistance and training (i.e. USAID). The Mission
attempted through its contractor to work with the Government of Iraq to make the system
sustainable, which involved a commitment on the part of the Government of Iraq to provide
adequate staffing, facilities, and funds. USAID decided to terminate funding when it became
apparent that the Government of Iraq was not prepared to assume responsibility for that
system, despite earlier assurances that it would do so. The Mission asserts this was the right
and proper action to take, and shows that the Mission understands the required partnership
approach and will safeguard tax payers’ money when the “no buy in” evidence is apparent.

Page 11 of the audit report “GOI Not Prepared to Receive a System”: USAID’s actions with
respect to the Social Safety Net System should not suggest that the Government of Iraq was
not prepared to receive the system. Neither should the report state that one USAID
contractor left the system in an “unusable condition.” The previous USAID contractor did
substantial work on the program during its period of performance and then reached a formal
agreement to hand the work over to another contractor. This is a common occurrence in such
programs worldwide, where USAID provides highly qualified technical assistance to a
governmental ministry, but for political or economic reasons that ministry is unable to fulfill
its agreement with USAID to receive and implement that assistance within the timeframe
specified. The Mission asserts that USAID followed correct procedures.

The audit states that the mission was unable to produce documentation about Information
Technology Systems implemented during the subject period of the audit. In the case of each
information technology system, the Mission referred the auditors to the final reports of the
contractors implementing these systems, which are routinely published through the
Development Experience Clearinghouse. While the Mission does not dispute that in some
cases these final reports were inadequately detailed for the purpose the auditor wished to use
them, these reports do constitute the documentation to which the auditors refer.

The table in the draft audit report states that SSN (#3) is partially deployed in four sites. In
fact, we have recent information from a January GOI-World Bank meeting that the SSN is
now deployed in six sites. More importantly, in the remaining sites (which cannot yet be
considered fully deployed), data entry to the system is actively underway nationwide; as of
January, 87% of records were entered into the SSN. The World bank Aide Memoire of the
January meeting states that "the use of the system has led to the development of a central
beneficiary database, which has allowed MOLSA to identify duplicates (sometime triplicate)


                                                                                             16
                                                                                       Appendix II


   beneficiaries (excluding about 57,000 ineligible households out of 120,000 in Baghdad),
   resulting in savings to date of about US$18 million to the SSN budget." We view the SSN as
   a key achievement and will support the completion of its deployment over the coming six
   months.

   The table in the draft audit report states that EMIS (#4) is not in use. However, USAID/CBO
   provided evidence to OIG to the contrary. While the narrative in the OIG report references a
   January 2012 UNDP report that was provided to the OIG that made specific reference to the
   use of the EMIS, nevertheless the table does not reflect this. Rather, the narrative dismisses
   the importance of this evidence and simply states that it "may" be in use. As well,
   USAID/CBO provided to the OIG a read-out of a meeting held in January between our
   implementing partner and the Ministry of Education Director General for Information and
   Communications at which the use of the EMIS was specifically discussed. The system is in
   use, but not fully functional. Technical assistance is required to upgrade the system. The
   new Education project will work on deploying the system to all Iraq's provinces. A team
   from the Ministry of Education will visit USAID to discuss the upgrading of the system.

   The OIG report states that the GAPTIS is not in use/accepted by the GOI based on anecdotal
   evidence provided by a single Department of State employee. As discussed with the OIG,
   two current USAID implementing partners working with provincial governors' offices have
   reported to us that GAPTIS is in use and that at least some governors find it of value. In fact,
   the conversations have been about how to integrate the information in GAPTIS into the
   IDMS. The system will be linked to the IDMS by the USAID/Governance Strengthening
   Project (GSP). Reference to GAPTIS is included in the scope of work of the GSP project.

Recommendation 1: We recommend that USAID/Iraq obtain firm commitment and buy-in
from the GOI, including cost sharing, before investing any funds in IT systems, and monitor
and track GOI commitment throughout the implementation of the systems.

USAID concurs with the recommendation. USAID has terminated support for information
systems in the past precisely because USAID was monitoring and tracking Government of Iraq
commitment throughout the implementation of the systems. USAID will continue to follow this
standard practice. In order to further strengthen this system and address OIG’s recommendation,
USAID/Iraq will issue a Mission Order on USAID-funded IT Systems.

Target date for completion of this action is September 30, 2012.

Recommendation 2: We recommend that USAID/Iraq issue guidance to implementing
partners of programs with IT components regarding the IV&V review process so that the
process can be completed in a thorough and timely manner.

USAID concurs with the recommendation, and agrees it will continue to follow this requirement
of ADS 548. Implementers are aware that IT systems implemented under USAID contracts and
valued over $100,000 are required to undergo an Independent Verification and Validation
(IV&V) review performed by the Chief Information Office. In order to further strengthen this




                                                                                                17
                                                                                      Appendix II


system and address OIG’s recommendation, USAID/Iraq will issue a Mission Order on USAID-
funded IT systems.

Target date for completion of this action is September 30, 2012.

Recommendation 3: We recommend that USAID/Iraq require sustainability and users’ needs
to be built into the design of USAID-funded IT systems.

USAID concurs with the recommendation. It should be noted that all designs had a
sustainability element built in; however, change of leadership of ministries may have affected the
continuous implementation of the system. In order to further strengthen this system and address
OIG’s audit recommendation, USAID/Iraq will issue a Mission Order on USAID-funded IT
systems.

Target date for completion of this action is September 30, 2012.

Recommendation 4: We recommend that USAID/Iraq complete and transfer IT systems
developed to the GOI in sufficient time before programs end to ensure that IT systems are
fully functional and used for their intended purposes. The completion, transfer, and use of
the system should be documented.

USAID concurs with the recommendation, and will continue to follow set standard practices.
The Mission asserts that while this is always the plan, for Iraq, the unexpected ferocity of
terrorist attacks and violence in the country precluded effective implementation of plans during
the subject period of the audit. In order to further strengthen this system and address OIG’s
recommendation, USAID/Iraq will issue a Mission Order on USAID-funded IT systems.

Target date for completion of this action is September 30, 2012.

Recommendation 5: We recommend that USAID/Iraq monitor and track the implementation
of IT systems, and immediately stop funding systems when it is determined that the systems
will not be useable, sustainable, or supported by the intended user.

USAID concurs with the recommendation, and agrees it will continue to follow this standard
practice. The Mission notes that the audit itself cites instances where this practice was
effectively followed by USAID/Iraq in the past. In order to further strengthen this system and
address OIG’s recommendation, USAID/Iraq will issue a Mission Order on USAID-funded IT
systems.

Target date for completion of this action is September 30, 2012.

Recommendation 6: We recommend that USAID/Iraq work with the GOI to determine if the
Bill Tracking System and Content Management System (see numbers 8 and 9 in Table 1) can
be salvaged and used.




                                                                                               18
                                                                                    Appendix II


The mission concurs with this recommendation. DGO is seeking a meeting with the Secretary
General of the Council of Representatives to advocate for the full implementation of the Bill
Tracking System and Content Management System in the Council of Representatives
(COR). DGO will continue to follow-up until they are able to meet with the Secretary General
or his representative on this matter. Target date for completion of this action is September 30,
2012.

Recommendation 7: We recommend that USAID/Iraq establish a follow-up system to
document that IT systems have been transferred to the intended users and that they are in
use.

USAID concurs with the recommendation. It is the standard practice to document transfer to
intended users in the final reports of contractors, which are routinely published through the
Development Experience Clearinghouse. The monitoring of intended use generally endures to
the end of the implementing contract. In order to further strengthen this system and address
OIG’s recommendation, USAID/Iraq will issue a Mission Order on USAID-funded IT systems.

Target date for completion of this action is September 30, 2012.




                                                                                             19
U.S. Agency for International Development
       Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
            Tel: 202-712-1150
            Fax: 202-216-3047
           www.usaid.gov/oig
